FEDERAL DEFENDERS or SAN DIEGO, INC.

THE COMMUNITY DEFENDER ORGANIZATION FOR THE SOUTHERN DISTRICT OF CALIFORNIA

February 24, 2021
Via electronic filing and first-class mail

Mr. Scott Harris

Clerk of Court

Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: No. 20-1043, United States v. Cano
Dear Mr. Harris:

I am counsel of record for the Respondent in this case, Miguel Angel Cano.
The Petitioner filed its petition for certiorari in this matter on January 29, 2021, and
the response is due March 1, 2021.

Pursuant to Rule 30.4, I am writing to request that the time for
filing Mr. Cano’s brief in opposition be extended by 30 days, to (and including)
March 31, 2021.

Iam making this request because of my current workload. To effectively
represent Mr. Cano, I require additional time to thoroughly research the issue and
prepare the brief in conformity with this Court’s standards. A 30-day extension will
allow me to balance my obligations to my other clients with my responsibilities in this
case.

Thank you for your attention to this matter.

SAN DIEGO OFFICE * 225 BROADWAY, SUITE 900 * SAN DIEGO, CA 92101 © T: 619.234.8467 © F: 619.687.2666
1 ELCENTRO OFFICE * 1699 W. MAIN STREET, SUITE D * EL CENTRO, CA 92243 ¢ T: 760.335.3510 « F: 760.335.3610
Mr. Scott Harris
February 24, 2021
Page 2

Respectfully submitted,

LA dw
OC aris P. Raghupathi
Federal Defenders of San Diego, Inc.
225 Broadway Suite 900
San Diego, CA 92101

Counsel for Respondent, Miguel Angel
Cano

cc: Counsel for Petitioner
